                                                                             Report No. DODIG-2013-121




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 23, 2013




                     Award and Administration of
                     Multiple‑Award Contracts at Joint
                     Base San Antonio-Lackland Need
                     Improvement




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
        Our mission is to provide independent, relevant, and timely oversight
        of the Department of Defense that: supports the warfighter;
        promotes accountability, integrity, and efficiency; advises the
            Secretary of Defense and Congress; and informs the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                   Results in Brief
                                   Award and Administration of Multiple‑Award
                                   Contracts at Joint Base San Antonio-Lackland Need
                                   Improvement


August 23, 2013                                     Findings Continued

Objective                                           officer’s representatives (CORs) surveillance of 19 task orders, valued at
                                                    $15.4 million. Specifically, contracting officers did not:
Our objectives were to determine whether
contracting officials provided a fair opportunity      •	 prepare quality assurance surveillance plans (QASPs) for the 19 task
to compete, supported price reasonableness                orders because they did not understand QASP requirements;
determinations, and performed adequate
surveillance for task orders issued under              •	 tailor COR designation letters because they relied on a standard
multiple-award contracts for services in                  template;
accordance with Federal and DoD procedures.
                                                       •	 monitor the CORs because they used customer feedback instead;
We reviewed 20 task orders, valued at
$15.8  million,        awarded      under    two       •	 obtain COR reviews of contractor monthly status reports because
multiple-award contracts.                                 CORs were not required to document their reviews; and

                                                       •	 verify the adequacy of COR reviews of other direct costs because
Findings                                                  CORs reviewed proposed costs, not actual costs.
The 772nd Enterprise Sourcing Squadron (ESS)        As a result, Air Force customers may not have received all of the services
contracting officers provided contractors a fair    they paid for.
opportunity to compete or adequately justified
a fair opportunity exception for 19 task orders
reviewed, valued at $15.3 million. However,         Recommendations
a contracting officer did not justify a fair        We recommend the Commander, 772nd ESS, obtain technical reviews
opportunity exception for one task order, valued    and IGCEs that are adequately supported and require contracting officers
at $446,954, because the contracting officer        to prepare QASPs, tailor COR designation letters, and require CORs to
did not understand the Federal Acquisition          document surveillance performed and report progress to the contracting
Regulation requirements for documenting fair        officer.
opportunity exceptions. In addition, they did
not adequately document that the prices paid
for the 20 task orders were fair and reasonable     Management Comments and Our
because they relied on unsupported technical        Response
evaluations and independent Government  cost
                                                    The Acting Deputy Director, 772nd ESS, responding for the Commander,
estimates (IGCE) that did not include the
                                                    772nd ESS, agreed with the recommendations. However, the Acting
estimate basis to make their determinations.
                                                    Deputy Director’s comments on Recommendation A.1 were partially
As a result, Air Force customers may have paid
                                                    responsive because the comments did not address whether the
more than they should have for the services
                                                    772nd ESS will develop written procedures for technical evaluations.
purchased under the 20 task orders reviewed.
                                                    The Acting Deputy Director’s comments were not responsive for
Contracting officers did not adequately oversee     Recommendations B.1 and B.2. because the comments did not address
Air Force Civil Engineer Center contracting         the type of multiple‑award task orders we reviewed. Please see the
                                                    Recommendations Table on the back of this page.

Visit us on the web at www.dodig.mil                                       DODIG-2013-121 (Project No. D2013-D000CF-0014.000) │ i
                  Recommendations Table
                                                                      Recommendations          No Additional
                                       Management                     Requiring Comment      Comments Required
                      Commander, 772nd Enterprise Sourcing Squadron        A.1, B.1, B.2.a     A.2, B.2.b, c, d, e, f

                  Please provide comments by September 23, 2013.




ii │ DODIG-2013-121
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500


                                                                            August 23, 2013

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
			              MANAGEMENT AND COMPTROLLER)

SUBJECT: Award and Administration of Multiple‑Award Contracts at Joint Base
	        San Antonio–Lackland Need Improvement (Report No. DODIG-2013-121)

We are providing this report for review and comment. Contracting officials at the
772nd Enterprise Sourcing Squadron generally provided contractors fair opportunity to
compete for task orders awarded under multiple-award contracts. However, they did not
prepare adequate fair and reasonable price determinations for 20 task orders reviewed,
valued at $15.8 million. In addition, contracting officer’s representatives at the Air Force
Civil Engineer Center did not perform adequate surveillance on 19 task orders reviewed or
review invoices for cost‑type contracts, which included unsupported other direct costs,
totaling $267,405.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
The Acting Deputy Director, 772nd Enterprise Sourcing Squadron, responding for the
Commander, 772nd Enterprise Sourcing Squadron, agreed with the recommendations.
However, the Acting Deputy Director comments on Recommendation A.1 were partially
responsive and not responsive for Recommendations B.1 and B.2. Therefore, we request
additional comments on those recommendations by September 23, 2013.

Please provide comments that conform to the requirements of DoD Directive 7650.3.
If possible, send a portable document file (.pdf) file containing your comments to
audapi@dodig.mil. Copies of management comments must contain the actual signature of
the authorizing official. We are unable to accept the /Signed/symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff.      Please direct questions to me at
(703) 604‑9077 (DSN 664-9077).




	                                             Jacqueline L. Wicecarver
	                                             Assistant Inspector General
	                                             Acquisition, Parts, and Inventory




                                                                                          DODIG-2013-121 │ iii
                  Contents
                  Introduction
                  Objectives_________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  772nd Enterprise Sourcing Squadron__________________________________________________________1
                  Air Force Civil Engineer Center_________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________2

                  Finding A. Contracting Officers Provided Contractors
                  Fair Opportunity, But Their Price Reasonableness
                  Determinations Could be Improved____________________________________3
                  Contracting Officers Provided Fair Opportunity to Contractors_____________________________3
                  Price Reasonableness Determinations Were Not Adequately Supported_ __________________4
                  Necessity for Good Documentation_____________________________________________________________8
                  Recommendations, Management Comments, and Our Response____________________________9

                  Finding B. Task Orders Lacked Adequate
                  Surveillance____________________________________________________________________________ 10
                  One Performance Plan and One Quality Assurance Surveillance Plan
                  Used for Oversight of Multiple‑Award Task Orders Awarded Under
                  Multiple‑Award Contracts ____________________________________________________________________ 11
                  Contracting Officer’s Representative Designation Letters Were Not
                  Modified to Fit Task Order Requirements ___________________________________________________ 12
                  Contracting Officers Did Not Review Contracting Officer’s Representative
                  Surveillance_ ___________________________________________________________________________________ 14
                  Contracting Officer’s Representatives Did Not Document Their Reviews
                  of Contractor Monthly Status Reports________________________________________________________ 14
                  Contracting Officer’s Representatives Did Not Adequately Review
                  Other Direct Costs _____________________________________________________________________________ 15
                  Conclusion______________________________________________________________________________________ 17
                  Recommendations, Management Comments, and Our Response__________________________ 18




iv │ DODIG-2013-121
Appendixes
Appendix A. Scope and Methodology________________________________________________________ 22
    Use of Computer-Processed Data _______________________________________________________ 23
Appendix B. Prior Coverage__________________________________________________________________ 24
Appendix C. Task Orders Reviewed__________________________________________________________ 26
Appendix D. Technical Evaluation Problems________________________________________________ 29
Appendix E. Summary of Potential Monetary Benefits_____________________________________ 31

Management Comments_____________________________________________________ 32
Acronyms and Abbreviations______________________________________________ 36




                                                                                                  DODIG-2013-121 │ v
                                                                                              Introduction




Introduction
Objectives
Our objectives were to determine whether contracting officials provided a fair
opportunity to compete, supported price reasonableness determinations, and performed
adequate surveillance for task orders issued under multiple-award contracts (MAC) for
services in accordance with Federal and DoD procedures. See Appendix A for a discussion
of the scope and methodology and Appendix B for prior coverage related to the objectives.


Background
Multiple-award contracting allows the Government to procure goods and services using
streamlined acquisition procedures while obtaining the advantage of competition. A
MAC represents a pool of indefinite-delivery, indefinite-quantity (IDIQ) contracts used
by DoD customers to obtain services. Specifically, all IDIQ contractors in the pool are
to be given a fair opportunity to compete for award of a task order. Federal Acquisition
Regulation (FAR) Subpart 16.5, “Indefinite-Delivery Contracts,” establishes a preference
for making multiple awards of indefinite-quantity contracts under a single solicitation for
the same or similar supplies or services to two or more sources.


772nd Enterprise Sourcing Squadron
According to the official Wright-Patterson Air Force Base website, the 772nd Enterprise
Sourcing Squadron (ESS) at Joint Base San Antonio–Lackland, Texas, is a geographically
separated unit of Air Force Materiel Command’s Enterprise Sourcing Group at
Wright‑Patterson AFB, Ohio. The 772nd ESS provides environmental, construction, and
services contract support for the Air Force Civil Engineer Center (AFCEC). We reviewed
20 task orders that 772nd ESS contracting officers awarded under two MACs for fair
opportunity and price reasonableness issues discussed in Finding  A. The first MAC
was for the Global Engineering, Integration, and Technical Assistance (GEITA) bridge
contracts. The second MAC was for Real Estate Support Services (RESS). See Appendix C
for a list of task orders reviewed.


Air Force Civil Engineer Center
According to the official U.S. Air Force website, AFCEC was established from the merger
of the Air Force Center for Engineering and the Environment, the Air Force Real Property
Agency, and the Air Force Civil Engineer Support Agency. The mission of AFCEC is to
provide ready engineers, engineering and real property solutions, and emergency



                                                                                          DODIG-2013-121 │ 1
Introduction



                 response services that enable sustainable, highly effective power projection platforms to
                 support the warfighter. Air Force leaders activated AFCEC on October 1, 2012. Contracting
                 officer’s representatives (CORs) at AFCEC were responsible for surveillance for 191 of
                 the 20 task orders discussed in Finding B.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
                 July  29,  2010, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating as
                 intended and to evaluate the effectiveness of the controls. We identified internal control
                 weaknesses in price reasonableness determinations and task order oversight and
                 surveillance. Specifically, contracting officers did not adequately support that the prices
                 paid for the 20 task orders were fair and reasonable because the contracting officers
                 relied on unsupported technical evaluations and independent Government cost estimates
                 (IGCEs) to make their determinations. In addition, contracting officers did not prepare
                 quality assurance surveillance plans (QASPs) for the 19 task orders because they did not
                 understand QASP requirements or tailor COR designation letters because they relied
                 on a standard template. Further, CORs did not document their reviews of contractor
                 monthly status reports because there was no requirement to document their reviews for
                 cost reimbursable task orders and because they used Wide Area Workflow (WAWF)2 to
                 document their monthly reviews of fixed price task orders. Also, CORS did not review
                 and verify documentation supporting other direct costs (ODC) on five task orders,
                 valued at $267,405, because they limited their reviews of ODCs to travel requests and
                 availability of funds rather than on actual travel receipts. We will provide a copy of
                 the final report to the senior official responsible for internal controls at the 772nd ESS
                 and AFCEC.




                 	1	
                     We reviewed 19 of the 20 task orders for surveillance because contracting officials cancelled one GEITA task order shortly
                     after award.
                 	2	
                     The DoD-wide system for electronic invoicing, receipt, and acceptance. WAWF allows government vendors to submit and
                     track invoices and receipt/acceptance documents over the web and allows government personnel to process those invoices
                     in a real-time, paperless environment.




2 │ DODIG-2013-121
                                                                                                   Finding A




Finding A
Contracting Officers Provided Contractors Fair
Opportunity, But Their Price Reasonableness
Determinations Could be Improved
Contracting officers provided contractors a fair opportunity to compete or adequately
justified a fair opportunity exception for 19 task orders, valued at $15.3 million, of the
20 task orders reviewed, valued at $15.8 million. However, a contracting officer did not
justify the use of a fair opportunity exception for one task order, valued at $446,954,
because she inappropriately determined that her signature on the requiring customer’s
request for a specific contractor justified the use of a fair opportunity exception.
This indicated that the contracting officer did not understand FAR requirements for
documenting fair opportunity exceptions. In addition, the contracting officers did not
adequately document that the prices paid for the 20 task orders were fair and reasonable
because the contracting officers relied on unsupported technical evaluations and
IGCEs that did not include the estimate basis to make their determinations. As a result,
Air  Force customers may have paid more than they should have for the services
purchased under the 20 task orders reviewed.



Contracting Officers Provided Fair Opportunity to
Contractors
Contracting officers followed fair opportunity procedures
for 19 task orders, valued at $15.3 million, of 20 task               Contracting
orders reviewed.      FAR 16.505(b)(1) requires that               officers followed
                                                                   fair opportunity
contracting personnel must provide each contractor a            procedures for 19 task
fair opportunity to be considered for orders exceeding             orders, valued at
$3,000 issued under MACs. Contracting officers provided            $15.3 million, of
                                                                    20 task orders
the prospective contractors for 18 task orders, valued
                                                                       reviewed.
at $14.9 million, a fair opportunity by emailing them a
copy of the solicitation as an attachment. A contracting officer
adequately justified a fair opportunity exception for task order 8, valued at $449,460,
awarded under contract FA8903‑11‑D‑8501, to a small business.              According to
FAR 16.505(b)(2)(i)(F), contracting personnel can set aside task orders issued under
MACs for small businesses.




                                                                                             DODIG-2013-121 │ 3
Finding A



                 A contracting officer did not document a fair opportunity exception for task
                 order 8, valued at $446,954, awarded under contract FA8903-11-D-8503, in accordance
                 with FAR  16.505(b)(2)(i), “Exceptions to the Fair Opportunity Process.” Instead, the
                 contracting officer inappropriately determined that her signature on the requiring
                 customers request for a specific contractor justified the use of a fair opportunity
                 exception. However, the contracting officer’s signature on the customer’s request for
                 a specific contractor did not meet FAR 16.505(b)(2)(i) requirements for documenting
                 and supporting the use of a fair opportunity exception. The contracting officer agreed
                 that she did not justify the fair opportunity exception for task order 8 in accordance
                 with FAR 16.505(b)(2)(i).


                 Price Reasonableness Determinations Were Not
                 Adequately Supported
                 Contracting officers received only one proposal on each of the 20 task orders, valued at
                 $15.8 million, and did not adequately document and support that the prices obtained
                 were fair and reasonable. The problems occurred because contracting officers relied on
                 the results of technical evaluations of contractor proposals that did not identify the basis
                 for determining the reasonableness of contractor-proposed hours rather than asking
                 the technical evaluators for more detailed information. In addition, the contracting
                 officers relied on IGCEs that did not document the basis for cost estimate determinations.
                 According to FAR 15.404-1, the contracting officer is responsible for evaluating the
                 reasonableness of the offered prices. As a result, Air Force customers may have paid more
                 than they should have for the services purchased under the 20 task orders reviewed.


                 Technical Evaluations for Contractor-Proposed Hours
                 Lacked Detail
                 Contracting officers relied on technical evaluations of contractor proposals
                 that lacked detail for the 20 task orders, valued at $15.8 million.          According to
                 FAR 15.404-1(e)(2), “At a minimum, the technical analysis should examine the types
                 and quantities of material proposed and the need for the types and quantities of labor
                 hours and the labor mix.” Supported technical evaluations are important because
                 contracting officers rely on them to support their price reasonableness determinations.
                 The technical evaluations for the 20 task orders reviewed were inadequate because they
                 did not identify the basis used for determining how contractor-proposed hours were
                 reasonable. Instead, the technical evaluations included cursory statements regarding
                 contractor-proposed hours regardless of the dollar value of the task order.             The
                 following are two examples where technical evaluations did not explain how
                 contractor-proposed hours were reasonable.


4 │ DODIG-2013-121
                                                                                              Finding A



Task Order 93
A contracting officer awarded Task Order 93 for the purchase of advisory and
assistance services at Kunsan Air Base, Republic of Korea to support the following
programs: environmental management system, compliance, pollution prevention,
and conservation and planning. The COR who prepared the technical evaluation for
task order 93, a firm‑fixed-price (FFP) task order, valued at $165,880, awarded under
FA8903-10‑D-8504, included the following statement, “The quantity and mix of labor
hours proposed by [the contractor] have been evaluated and are considered to be fair
and reasonable.” The COR did not include any additional explanation or documentation
to support that statement.


Task Order 205
A contracting officer awarded Task Order 205 for the purchase of advisory and assistance
services at numerous Air Force bases in support of environmental program requirements.
The COR who prepared the technical evaluation for task order 205, a cost‑plus‑fixed‑fee
(CPFF) task order, valued at $2,373,831, awarded under contract FA8903-10-D-8501,
stated, “The quantity and mix of labor hours proposed by [the contractor] have been
evaluated and are considered to be fair and reasonable.” However, the COR did not include
any additional explanation or documentation to support that statement.

Historical pricing information existed for 18 of the 20 task orders reviewed.
Contracting officers stated that CORs used historical information to determine that
contractor‑proposed hours were reasonable and agreed that the CORs should have
provided more detail in the technical evaluations explaining how the contractor-proposed
hours were reasonable. The contracting officers also stated that they did not request
additional information from the CORs but rather relied on the CORs expertise alone.
For details on the technical evaluations prepared in support of the 20 task orders, see
Appendix  D. The Commander, 772nd ESS, needs to establish written procedures with
examples to show contracting officers for task orders awarded under MACs how to obtain
technical evaluations of contractor proposals that identify the basis for determining how
proposed hours are reasonable.


General Statements Used to Support IGCEs
Contracting officers relied on the inadequate IGCEs for 15 task orders, valued at
$10.4 million, of the 20 task orders when making price reasonableness determinations.
According to FAR 15.404-1(b)(2)(v), comparison of proposed prices with IGCEs is
one price analysis technique for determining price reasonableness. The IGCEs were




                                                                                        DODIG-2013-121 │ 5
Finding A



                 inadequate because they included general statements instead of specific information
                 on the basis used for determining the adequacy of the estimated costs. General
                 statements included:

                              •	 previous projects,

                              •	 expiring orders,

                              •	 prior history for similar requirements,

                              •	 previous IGCEs,

                              •	 past task order history, and

                              •	 similar work at other bases.

                 Table 1 identifies the non-specific information that the COR prepared to support the
                 IGCE for task order 93, a FFP task order, valued at $165,880, awarded under contract
                 FA8903-10-D-8504. The nonspecific information consisted of historical experience,
                 previous similar projects, previous IGCEs and previous projects.

                 Table 1. Inadequate IGCE For Task Order 93
                     The basis of the IGE is as follows:
                     1.	 How was this estimate developed?
                         This IGE was developed using project knowledge, historical experience for developing
                         cost estimates, and consultation with other technical professionals.
                     2.	 What assumptions were made?
                         One mid-level engineer for 12 months, no TDYs.
                     3.	 What information and estimating tools were used?
                         Information from previous similar projects at Kunsan was used to develop the IGE.
                     4.	 Where was the information obtained?
                         Previous IGEs and new FY 12 labor rates from GEITA Bridge.
                     5.	 How did previous estimates compare with prices paid?
                         Prices paid in previous projects were comparable to project estimates (note: GEITA bridge
                         pricing very similar to GEITA 05).


                 The COR who prepared the inadequate IGCE for task order 93 also prepared the inadequate
                 technical evaluation for task order 93.

                 Table 2 on page 7 identifies the nonspecific information that the COR prepared to
                 support the IGCE for task order 205, a CPFF task order, valued at $2,373,831,
                 awarded under contract FA8903-10-D-8501. The nonspecific information consisted of
                 previous projects.




6 │ DODIG-2013-121
                                                                                                             Finding A



Table 2. Inadequate IGCE For Task Order 205
 The basis of the IGE is as follows:
 1.	 How was the IGE developed?
     The IGE was developed using GEITA direct and indirect costs associated with the contract for
     this task order.
 2.	 What assumptions were made?
     All labor and materials will be provided by the Contractor to complete tasks.
 3.	 What information and estimating tools were made?
     Information used for this estimate was obtained from the Installation or PMO group.
 4.	 Where was the information obtained?
     The information was obtained from the Installation or PMO group and programming
     documents.
 5.	 How did previous estimates compare with prices paid?
     In relation to the technical aspect of the task order, prices paid are comparable to previous
     projects.


The COR who prepared the inadequate IGCE for task order 205 also prepared the
inadequate technical evaluation for task order 205.

Table 3 provides an example where the COR identified specific information to support the
IGCE for task order 214, a FFP task order, valued at $206,601, awarded under contract
FA8903-10-D-8501. For example, the IGCE identified a specific prior contract that the
COR used to estimate hours.

Table 3. IGCE For Task Order 214 That Included More Detail
 The basis of the IGE is as follows:
 1.	 How was the IGE developed?
     The IGE was developed using my experience from other GEITA support contracts, personal
     knowledge of the requirements after speaking with the customer and through my experience
     in developing other types of engineering and support cost estimates.
 2.	 What assumptions were made?
     Hours worked and personnel will be similar to the previous contract (FA8903-10-D8501-117
     and 05-D-8729-0576 and 0396). The Government will provide fully functional work stations
     and typical office supplies at JBER, AK [Joint Base Elmendorf-Richardson, Alaska] and JBPHH, HI
     [Joint Base Pearl Harbor-Hickam, Hawaii]. For travel estimated purposes the contractor should
     assume: Hickam to Wake - 4 trips for up to a 2 week period Hickam to Kokee- 1 trip for up to a
     1 week period. Period of performance will be 12 months.
 3.	 What information and estimating [sic] tools were used?
     GEITA IGE tool, the base support letter and position descriptions provided by the base project
     manager.
 4.	 Where was the information obtained?
     Task descriptions were provided by the base, office support was provided in the base support
     letter and labor rates were gathered from the AFCEE IGE Tool.
 5.	 How did previous estimates compare with prices paid?
     Estimates for previous projects were reasonably close to final contract amounts. Much of this
     is due to set labor rates and number of hours for a full-time position and because this type of
     support has been provided over a number of years. The continuing support has reduced the
     number of unknowns to the government and contractor.




                                                                                                       DODIG-2013-121 │ 7
Finding A



                 While task order 214 was a low-dollar, FFP task order, the COR provided more detailed
                 information than the COR who prepared the IGCE for task order 205, a high-dollar CPFF
                 task order. The Commander, 772nd ESS, needs to require contracting officers to obtain
                 IGCEs that include adequate documentation to support cost estimates.


                 Necessity for Good Documentation
                 In DoD Inspector General Report No. D-2011-021, “More DoD Oversight Needed for
                 Purchases Made Through the Department of Energy,” December 3, 2010, we identified
                 the need for good documentation.

                            Need for Good Documentation. Good documentation is essential to good
                            contracting. As time goes on, you forget times, dates, persons involved,
                            and other elements that are important in all aspects of contracting and
                            pricing in particular. While fresh in your mind, you should document:


                                •	   events;

                                •	   actions; and

                                •	   decisions.

                            Problems from Poor Documentation. Lack of good documentation can
                            create serious problems. Since you will not always be available to explain
                            what you did, or why, other contracting personnel will not know what
                            happened, or about any special circumstances that may have affected
                            your decisions. If your files lack proper documentation:


                                •	   other contracting personnel may take the time to accomplish
                                     an action or make a decision that you have already completed.
                                     These actions or decisions may conflict with yours.

                                •	   legal advisors and management review teams may question
                                     your action or lack of action because they do not have all of the
                                     relevant information.

                                •	   you will find that the lack of documentation is generally treated
                                     as a lack of action. If it is not documented, it never happened.




8 │ DODIG-2013-121
                                                                                               Finding A




Recommendations, Management Comments, and
Our Response
Recommendation A
We recommend the Commander, 772nd Enterprise Sourcing Squadron, establish
written procedures with examples to show contracting officers for task orders
awarded under multiple-award contracts how to:

      1.	   Obtain technical evaluations of contractor proposals that identify the
            basis for determining how contractor-proposed hours are reasonable.

772nd Enterprise Sourcing Squadron Comments
The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
agreed, stating that the 772nd ESS will train contracting personnel to include guidance
in their requests for technical evaluations to identify the basis for determining how
proposed labor hours are reasonable. The 772nd ESS plans to complete the training by
August 31, 2013.


Our Response
Comments from the Acting Deputy Director were partially responsive. Training, along
with establishing written procedures will meet the intent of our recommendation.
Accordingly, the Commander, 772nd ESS needs to clarify whether the 772nd ESS
intends to establish written procedures for technical evaluations.

      2.	   Obtain independent Government cost estimates that include adequate
            documentation to support cost estimates.

772nd Enterprise Sourcing Squadron Comments
The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
agreed, stating that the 772nd ESS will revise the Purchase Request Checklist to include
language that directs CORs to provide significant detail regarding the basis of their cost
estimate. Additionally, contracting officers will verify that estimated costs are properly
supported. In correspondence received after official comments, a 772nd ESS contracting
official stated the 772nd ESS plans to complete these actions by September 30, 2013.


Our Response
Comments from the Acting Deputy Director were responsive and no further comments
are required.



                                                                                         DODIG-2013-121 │ 9
Finding B




                  Finding B
                  Task Orders Lacked Adequate Surveillance
                  The 772nd ESS contracting officers and AFCEC CORs did not perform adequate
                  surveillance of 19 task orders3 reviewed, valued at $15.4 million. Specifically, for the
                  19 task orders reviewed, the contracting officers did not:

                                •	 prepare task order-specific QASPs because they did not understand
                                    QASP requirements;

                                •	 tailor COR designation letters to the specific requirements of individual
                                    task orders because they used a standard template for all COR designation
                                    letters, and

                                •	 adequately monitor the CORs because they relied on customer feedback as
                                    the method of determining whether CORs were performing their duties.

                  The CORs did not:

                                •	 document their reviews of contractor monthly status reports for 19 task
                                    orders because there was no requirement to document their reviews for
                                    cost reimbursable task orders and because they used Wide Area Workflow
                                    (WAWF)4 to document their reviews of fixed‑price task orders; and

                                •	 review and verify documentation supporting other direct costs (ODC) on
                                    five5 task orders, valued at $267,405, because they limited their reviews of
                                    ODCs to travel requests and availability of funds rather than on actual
                                    travel receipts.

                  As a result, Air Force customers may not have received all of the services they paid for.



                 1




                 	3	
                       See Footnote 1.
                 	4	
                       The DoD-wide system for electronic invoicing, receipt, and acceptance. WAWF allows government vendors to submit and
                       track invoices and receipt/acceptance documents over the web and allows government personnel to process those invoices
                       in a real-time, paperless environment.
                 	5	
                       Contractors for the other 2 task orders with cost reimbursable line items did not submit bills for ODCs and the other 12 task
                       orders did not have cost reimbursable line items for ODCs because they were FFP.




10 │ DODIG-2013-121
                                                                                                  Finding B



One Performance Plan and One QASP Used for
Oversight of Multiple‑Award Task Orders Awarded
Under MACs
Contracting officers and CORs did not prepare task order-specific QASPs for the
19 task orders. Instead, they prepared one performance plan for all IDIQ contracts
for the GEITA MAC and one QASP for all IDIQ contracts for the RESS MAC.
FAR Subpart 46.4, “Government Contract Quality Assurance,” states that QASPs should
be prepared in coordination with the performance work statement. FAR Subpart 37.6,
“Performance‑Based Acquisitions,” adds that the performance work statement should
include measureable performance standards and the methodology for assessing
contractor performance against performance standards. In addition, FAR subpart 46.4
states that the QASP should address the frequency of surveillance and the location. The
QASP should also identify all work requiring surveillance and the type of surveillance.
The surveillance can be performed at any time or location deemed necessary to verify
that services conform to contract requirements.

Since contracting officers issued task orders against the IDIQ contracts, they should have
developed a separate QASP before each task order award to provide requirements for COR
monitoring and reporting of contractor progress and provide instruction for acceptance
of contract deliverables.     The contracting officers did not understand the QASP
requirement. In addition, separate QASPs should identify who has responsibility for
surveillance and be signed and dated before the start of the task order performance
period.

A contracting officer stated that the FAR does not require QASPs for individual task orders.
The 19 task orders varied in price from $162,090 to $4.4 million, included a mixture of
                            15 FFP and 4 CPFF contract types, and involved purchase of
               A               services for various Air Force sites around the world.
          contracting           Contracting officers and CORs did not establish adequate
      officer stated that
      the FAR does not          methods for assessing contractor performance for the
      require QASPs for         17 GEITA task orders we reviewed. While the GEITA MAC
       individual task          performance plan included four potential methods of
            orders.
                               assessing contractor performance—periodic inspection,
                            random sampling, 100 percent inspection, and customer
feedback—contracting officers used customer feedback, measured as customer
complaints, as the primary method of assessing contractor performance.




                                                                                           DODIG-2013-121 │ 11
Finding B



                 The RESS QASP included three potential methods of assessing contractor performance—
                 periodic inspection, 100 percent inspection, and customer feedback. The two RESS
                 task orders reviewed included periodic inspection in addition to customer feedback,
                 measured as customer complaints, as the method of assessing contractor performance.
                 The Commander, 772nd ESS, needs to require contracting officers and CORs to prepare,
                 sign, and date QASPs for individual task orders that identify specific methods for assessing
                 contractor performance before the start of task order performance.

                 Table 4. Methods of Assessing Contractor Performance
                                                                      Methods of Assessment
                                             “Potential surveillance methods used for monitoring contractor
                      GEITA Performance      performance of task orders issued against the basic contracts may include
                      Plan                   Periodic Inspection, Random Sampling, 100% Inspection, and Customer
                                             Feedback.”
                                             “Potential surveillance methods used for monitoring contractor
                      RESS QASP              performance of task orders issued against the basic contracts may include
                                             Periodic Inspection, 100% Inspection, and Customer Feedback.”
                 Legend:
                    GEITA      Global Engineering, Integration, and Technical Assistance
                    QASP       Quality Assurance Surveillance Plan
                    RESS       Real Estate Support Services

                 The periodic inspection method of assessment combined with the customer
                 complaint performance standard used in the two RESS task orders provided a more
                 systematic approach for surveillance than just customer complaints. According to the
                 DoD COR Handbook, March 22, 2012, while customer feedback is a method of
                 assessing contractor performance, it is not usually a primary method but rather a
                 supplement to more systematic surveillance methods. The Commander, 772nd ESS,
                 needs to require contracting officers to tailor methods of assessing contractor performance
                 to the contract type and dollar value.


                 COR Designation Letters Were Not Modified to Fit Task
                 Order Requirements
                 Contracting officers did not modify COR designation letters to specific requirements
                 for the 19 task orders reviewed. Of the 19 task orders, 4 were CPFF. However, the COR
                 letters for those 4 task orders were exactly the same as the COR letters for the 15 FFP task
                 orders. Cost reimbursable contracts shift the risk to the Government as shown in Figure 1
                 on page 13 obtained from the DoD COR Handbook. Instead of paying a pre-defined price,
                 the Government reimburses the contractor for all allowable, allocable, and reasonable
                 costs. Accordingly, surveillance requirements in the COR designation letters should have
                 reflected that difference.



12 │ DODIG-2013-121
those 4 task orders were exactly the same as the COR letters for the 15 FFP task orders. Cost
reimbursable contracts shift the risk to the Government as shown in Figure 1 below obtained
from the DoD COR Handbook. Instead of paying a pre-defined price, the Government
                                                                                                                 Finding B
reimburses the contractor for all allowable, allocable, and reasonable costs. Accordingly,
surveillance requirements in the COR designation letters should have reflected that
difference.
Figure 1. Risks of Firm-Fixed Price versus Cost-Reimbursable Contracts
       Figure 1. Risks of Firm-Fixed Price versus Cost-Reimbursable Contracts
                                     GOVERNMENT
  LOW                                                                      HIGH
         Firm Fixed Price                         RISK                     Cost Reimbursement

  HIGH                                                                                         LOW
                                           CONTRACTOR

In addition, CORs did not perform duties required by the COR designation letters.
In  addition, COR
Specifically,    CORsdesignation
                          did not perform       dutiesCORs
                                    letters required    required    by the
                                                              to prepare      COR designation
                                                                         memorandums                letters.
                                                                                          for the record
of all meetings,
Specifically,   CORtrips,  and telephone
                       designation        conversations
                                      letters  required relating
                                                           CORs totoprepare
                                                                      the task orders  regardless of
                                                                                 memorandums       forthe
                                                                                                        the
task order amount or where the contractor was located. CORs provided various reasons why
record
they didof
         notallfollow
                 meetings,     trips, and telephone
                        the documentation                conversations
                                             requirements.     One COR wasrelating   to of
                                                                               unaware  thethetask orders
regardless  of the
documentation         task order another
                  requirements,    amountCOR or where
                                                  statedthe
                                                          thatcontractor
                                                               he believedwas
                                                                            his located.
                                                                                presence CORs    provided
                                                                                          at meetings
and  minutes   of meetings    prepared  by  the contractor  were  sufficient, and
various reasons why they did not follow the documentation requirements. One COR    another COR    statedwas
that she did not prepare memorandums for each meeting and telephone conversations but
unaware    of e-mails
instead kept    the documentation       requirements, another COR stated that he believed his
                         and deliverables.
presence at meetings and minutes of meetings prepared by the contractor were sufficient,
and another COR stated that she did not prepare memorandums for each meeting and
telephone conversations but instead kept e-mails and deliverables.

All 19 COR designationDRAFT         FOR
                       letters included   OFFICIAL
                                        the           USE ONLY
                                            following excerpt:
                                           11
               Perform inspection and acceptance for the Government assuring
               performance/delivery is in accordance with contract/order
               requirements, terms and conditions. Ensure the hours worked by
               the contractor are the hours billed in the contractor’s invoice.


However, services procured under the task orders ranged from the preparation of legal
documents to the services of a person with construction management experience.
In addition, the contractors for the 15 FFP task orders were not required to bill by
the hour. The wording should have been tailored to the COR’s responsibilities for each
task order.

The contracting officer who awarded 10 of the 19 task orders stated that it would be
administratively unfeasible to craft different memorandums for each COR and alternate
COR without a basis for the generation of added effort and potential for inadvertently
omitting some of the responsibilities.               The contracting officer who awarded the
other nine task orders stated that she used a standard template to prepare the COR
designation letters. The Commander, 772nd ESS, needs to require contracting officers
to develop COR designation letters tailored to the requirements of each task order and
require CORs to follow the instructions in the COR designation letters.




                                                                                                          DODIG-2013-121 │ 13
Finding B



                 Contracting Officers Did Not Review COR Surveillance
                 Contracting officers did not monitor the surveillance that CORs performed for the
                 19 task orders. FAR 1.602-2, “Responsibilities,” states that contracting officers are
                 responsible for ensuring compliance with the terms of the contract, and safeguarding
                 the interests of the United States in its contractual relationships. The contracting
                 officer who awarded 10 of the 19 task orders stated that she did not monitor the
                 CORs performance but instead used customer feedback as her method of determining
                 whether the CORs were performing adequate surveillance. The Commander,
                 772nd ESS, needs to require contracting officers to review COR surveillance files to
                 verify that the CORs are providing adequate surveillance.


                 CORs Did Not Document Their Reviews of Contractor
                 Monthly Status Reports
                 CORs did not document their reviews of contractor monthly status reports for 19 task
                 orders. According to the MACs, the contractor monthly status report shall include a
                 statement of the overall project status, covering the accomplished technical activities and
                 development; objectives of efforts; summary results of efforts; identification of major
                 problems/deficiencies with impact; and recommended solutions. FAR 46.501, “General,”
                 states that acceptance constitutes acknowledgement that the supplies or services conform
                 to applicable contract quality and quantity requirements. FAR 46.501 also states that the
                 acceptance should ordinarily be evidenced by execution of an acceptance certificate on
                 an inspection. FAR 4.802, “Contract Files,” requires that a contract file should include
                 documents reflecting the basis for and the performance of contract administration
                 responsibilities. Accordingly, the COR is required to document acceptance of deliverables
                 and to include that documentation in the COR surveillance file. CORs for the four CPFF
                 task orders stated that they did not document their reviews of the contractor monthly
                 status reports because they were not required to. The CORs for the 11 of the 15 FFP
                 task orders stated that they documented their reviews of contractor monthly status
                 reports by accepting contractor invoices in WAWF which included contractor monthly
                 status reports as attachments. While WAWF showed that CORs inserted a check mark
                 in WAWF to show their acceptance of contractor invoices, there was no evidence that
                 the CORs reviewed and verified the contractor monthly status reports attached to the
                 invoices. The Commander, 772nd ESS, needs to require contracting officers to require
                 that CORs document their reviews of contractor monthly status reports.




14 │ DODIG-2013-121
                                                                                                                             Finding B



CORs Did Not Adequately Review Other Direct Costs
CORs did not perform adequate reviews of ODCs, valued at $267,405, included on
contractor invoices. The ODCs consisted primarily of travel and material costs and were
included in three CPFF task orders, valued at $8.7 million, and two FFP task orders,
valued at $790,773, that included cost reimbursable line items for ODCs. Some contractor
invoices identified what the ODCs were for, while other invoices just stated other direct
costs. However, in neither situation did the CORs review contractor actual receipts to
determine whether the receipts supported the ODCs included on the invoices. Figure 2
below includes an excerpt from a contractor invoice that shows where a contractor invoice
did not specify what the other direct costs were for and the COR did not review contractor
documentation to validate the other direct costs.

Figure 2. Contractor Invoice That Did Not Specify Other Direct Costs

      [CONTRACTOR] 
   
   
      INVOICE
   
   
   
   
      Invoice : INV-0000016666            Invoice Date : 11/20/12
      Invoice Amount : [Deleted]          Invoice Due Date : 12/20/12
   
   
      Bill To                              Remit To
      U.S. AIR FORCE                       [CONTRACTOR]
      772 ESS/PKS/BLDG 171
      2261 Hughes AVE STE 163

      LACKLAND AFB TX 78236-9861
   
   
   
      Project ID : 2244.0068              Project Period of Performance : Oct.31.2011 to Oct.30.2012
      Project Name : DLA PM Support       Invoicing Period of Performance : Sep 29, 2012 to Oct 26, 2012
      Bill Number : 12
   
   
                    Description                   Rate/Unit Price             Hours/Unit        Amount
      TOTAL LABOR
      FULL TIME LABOR                                                               [Deleted]         [Deleted]
      PART TIME LABOR                                                               [Deleted]         [Deleted]
                                         Subtotal for TOTAL LABOR                   [Deleted]        [Deleted]
      TOTAL FRINGE
      FULL TIME FRINGE                                        [Deleted]                               [Deleted]
      PART TIME FRINGE                                        [Deleted]                               [Deleted]
                                         Subtotal for TOTAL FRINGE                                   [Deleted]
      TOTAL OVERHEAD
      AFCEE OFFICE O/H                                        [Deleted]                               [Deleted]
      HOME ORG OVERHEAD                                       [Deleted]                               [Deleted]
      ON-SITE O/H                                              [Deleted]                              [Deleted]
                                      Subtotal for TOTAL OVERHEAD                                    [Deleted]
      TOTAL ODCs                                                                                                   
      OTHER
      OTHER DIRECT
            DIRECT COSTS
                   COSTS                                                                              [Deleted]
                                              Subtotal for TOTAL ODCs                                [Deleted]
      TOTAL SUBCONTRACTOR                                                                                          
      SUB DIRECT COSTS                                                                                [Deleted]
      SUB G&A                                                 [Deleted]                              [Deleted]
      SUB HANDLING                                            [Deleted]                              [Deleted]
   
                                                     Page 1 of 2

                                                                                                                      DODIG-2013-121 │ 15
Finding B



                 CORs provided various reasons why they did not review supporting documentation for
                 ODC amounts (see Table 5 below). We did not review labor hours identified in contractor
                 invoices, only other direct costs.

                 Table 5. Reasons Why CORs Did Not Review ODC Source Documentation
                          Contract No.        ODC               Type of Contract                 Reasons
                                             Amounts
                                                                                     Source documents are not
                                                                                     typically reviewed unless there
                      FA8903-10-D-8500/49     $24,993      Cost-plus-fixed-fee       is a concern about the realism
                                                                                     verses scope anticipated.
                                                                                     COR stated that this contract
                                                                                     required an off-site contractor
                                                                                     to work on different phases of
                                                                                     the PRD process. The signed
                      FA8903-10-D-8501/205     74,775      Cost-plus-fixed-fee
                                                                                     invoices and meeting minutes
                                                                                     demonstrates review of other
                                                                                     direct costs (that are included in
                                                                                     the invoices) and surveillance.
                                                                                     COR stated that ODCs were
                                                                                     primarily for travel and that
                                                                                     he did not review receipts for
                                                                                     travel but used site reports to
                      FA8903-10-D-8502/68     150,299      Cost-plus-fixed-fee       verify that the travel occurred.
                                                                                     COR then applied the Joint
                                                                                     Travel Regulations to determine
                                                                                     whether ODC amounts for travel
                                                                                     were appropriate.
                                                                                     COR stated: “I review funding
                                                                                     remaining in the CLIN [contract
                                                           Firm-fixed-price with     line item number] and the
                      FA8903-10-D-8501/209      8,097      cost reimbursable         requirement in the performance
                                                           material & travel costs   work statement and if
                                                                                     appropriate I send back my
                                                                                     approval.”
                                                                                     COR stated that she focused her
                                                           Firm-fixed-price with     review on verifying that ODCs
                      FA8903-10-D-8501/210      9,241      cost reimbursable         billed had not exceeded the
                                                           material & travel costs   ODC CLIN amount.
                       Total                 $267,405
                 Legend:
                    COR	 Contracting Officer’s Representative
                    CLIN	 Contract Line Item Number
                    ODC	 Other Direct Costs

                 The CORs explained that they limited their reviews of ODCs to travel requests and the
                 availability of funds instead of reviewing actual travel receipts. They also stated that
                 the contractors maintained actual travel receipts; however, they did not request the
                 receipts from the contractors.




16 │ DODIG-2013-121
                                                                                                 Finding B



According to DoD Financial Management Regulation, volume 10, chapter 10,
paragraph 100302(A), while the Defense Contract Audit Agency has sole authority for
verifying claimed costs under cost reimbursement, time and materials, and labor-hour
contracts, CORs may also review contractor billings in support of their surveillance
responsibilities as long as they coordinate with the Defense Contract Audit Agency
when cost verification of data is necessary. On April 14, 2008, the Director, Defense
Procurement, Acquisition Policy and Strategic Sourcing, issued a memorandum,
“Approving Payments under Cost-Reimbursement, Time-and-Materials, and Labor-Hour
Contracts,” that also stated that CORs may review contractor billings as part of their
contract performance surveillance.

Accordingly, CORs may request, review, and maintain receipts to verify the validity of
charges billed for ODCs. The lack of supporting documentation (for example airline
tickets, hotel bills, and rental car receipts) for invoices increased the risk for improper
payment. See Appendix E for a summary of potential monetary benefits resulting from
CORs reviewing ODCs. The Commander, 772nd ESS, needs to require contracting officers
to obtain supporting documentation and validate the other direct costs of $267,405,
or, as appropriate, initiate action to recover unsupported other direct costs.


Conclusion
Performance monitoring was inadequate.          Specifically, contracting officers did not
provide sufficient guidance in the form of QASPs for each task order and did not tailor
COR designation letters to the requirements of each task order. Instead, the contracting
officers relied on the customer to inform them if the CORs were not adequately
                         monitoring the contractor. In turn, the CORS relied on customer
       Air Force           feedback as the primary method of monitoring the quality of
      customers             the contractor’s performance. The CORs for the four CPFF
     may not have
                            task orders did not have a formal process for documenting
   received all of the
     services they          that they reviewed the contractor monthly status reports
        paid for.          even though there is a higher risk to the Government
                         when issuing CPFF task orders. The CORs for the 11 of the
15 FFP task orders did not maintain evidence that they actually reviewed contractor
monthly status reports but only checked a box in WAWF for approving an invoice. In
addition, the CORs did not review contractor documentation to determine whether that
documentation supported the ODCs included on the invoices. As a result, Air Force
customers may not have received all the services they paid for.




                                                                                          DODIG-2013-121 │ 17
Finding B



                 Recommendations, Management Comments, and Our
                 Response
                 Recommendation B
                 We recommend the Commander, 772nd Enterprise Sourcing Squadron require:

                       1.	   Contracting officers and contracting officer’s representatives to prepare,
                             sign, and date quality assurance surveillance plans for individual task
                             orders, identifying specific methods of assessing contractor performance
                             before the start of task order performance.

                 772nd Enterprise Sourcing Squadron Comments
                 The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
                 agreed, stating that the 772nd ESS implemented use of a Quality Assurance Surveillance
                 Plan at the task-order level when the squadron began acquiring advisory and assistance
                 services under General Services Administration orders.


                 Our Response
                 Comments from the Acting Deputy Director were nonresponsive because the comments
                 focused on General Services Administration orders. The task orders we reviewed were
                 multiple‑award task orders awarded under FAR 16.5 procedures where 772nd ESS
                 contracting officers awarded both the MAC and the task orders under the contracts.
                 Accordingly, the Commander, 772nd ESS, needs to clarify whether the 772nd ESS
                 implemented the use of QASPs for the type of task orders we reviewed.

                       2.	   Contracting officers to:

                             a.	 Tailor methods of assessing contractor performance to the contract
                               type and the dollar value.

                 772nd Enterprise Sourcing Squadron Comments
                 The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
                 agreed, stating that the 772nd ESS took corrective action to document the different
                 methods for performing surveillance in each QASP under General Services
                 Administration orders and that it completed the action on May 1, 2013.


                 Our Response
                 The Acting Deputy Director comments were nonresponsive because the comments
                 focused on General Services Administration orders. The task orders we reviewed



18 │ DODIG-2013-121
                                                                                                Finding B



were multiple-award task orders awarded under FAR 16.5 subpart procedures where
772nd ESS contracting officers awarded both the MACs and the task orders under
the contracts. Accordingly, the Commander, 772nd ESS, needs to clarify whether the
772nd ESS will take corrective action to document the different methods for performing
surveillance in the QASPs prepared for individual multiple‑award task orders.

           b.	 Develop contracting officer’s representative’s designation letters
                tailored to the requirements of each task order.

772nd Enterprise Sourcing Squadron Comments
The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
agreed, stating that the 772nd ESS will take corrective action to provide training to
contracting personnel to properly identify the pricing arrangement, understand the
risks associated with the pricing arrangement selected, and include only COR duties
that are applicable for the task order when identifying COR surveillance responsibilities
in the COR designation letters. The 772nd ESS plans to complete this training by
August 31, 2013.


Our Response
Comments from the Acting Deputy Director were responsive, and no further comments
are required.

           c.	 Require contracting officer’s representatives to follow the instructions
                in the contracting officer’s representative’s designation letters.

772nd Enterprise Sourcing Squadron Comments
The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
agreed, stating that the 772nd ESS took corrective action to remind CORs during the
contracting officer led training to follow the instructions in the COR designation letters
when conducting surveillance. The Acting Deputy Director stated that the training
documentation has been revised to include a statement that CORs are to follow the
instructions and are advised of their duties and responsibilities. The Acting Deputy
Director stated that contracting personnel are reviewing COR files on a quarterly basis
to ensure CORs are following assigned duties as specified in the designation letter and
that the Acting Deputy Director would elevate issues where a COR is not in compliance to
Air Force Civil Engineer Center leadership. The 772nd ESS completed this action on
June 1, 2013.




                                                                                         DODIG-2013-121 │ 19
Finding B



                 Our Response
                 Comments from the Acting Deputy Director were responsive, and no further comments
                 are required.

                            d.	 Review the contracting officer’s representatives surveillance files
                                 to determine whether contracting officer’s representatives are
                                 performing adequate surveillance.

                 772nd Enterprise Sourcing Squadron Comments
                 The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
                 agreed, stating that the 772nd ESS took corrective action to ensure contracting
                 officers review the COR files utilizing a “Contracting Officer Representatives Checklist”
                 as included in the DoD Contracting Officer Representatives Handbook. The Acting
                 Deputy Director stated that as COR file reviews are completed, a narrative report
                 is drafted and coordinated with the COR for his acknowledgement and signature.
                 Narrative reports include any deficiencies and set a suspense date for correction.
                 Additionally, the findings from reviews are loaded into the Contracting Officer
                 Representatives Tool and forwarded to the COR and his supervisor. The 772nd ESS
                 completed this action by June 1, 2013.


                 Our Response
                 Comments from the Acting Deputy Director were responsive, and no further comments
                 are required.

                            e.	 Require contracting officer’s representatives to document their
                                 reviews of contractor monthly status reports.

                 772nd Enterprise Sourcing Squadron Comments
                 The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
                 agreed, stating that the 772nd ESS will take corrective action to provide training to
                 CORs to document reviews of contractor monthly status reports where there are any
                 discrepancies and/or deficiencies in WAWF, under the Miscellaneous Tab. The Acting
                 Deputy Director stated that if there are no discrepancies and/or deficiencies, the checked
                 block should suffice as evidence that the CORs reviewed the invoice. By checking the
                 block, the CORs acknowledge their review. The 772nd ESS plans to complete this action
                 by August 31, 2013.




20 │ DODIG-2013-121
                                                                                            Finding B



Our Response
Comments from the Acting Deputy Director were responsive, and no further comments
are required.

           f.	 Obtain supporting documentation and validate the other direct costs
                of $267,405 cited below or, as appropriate, initiate action to recover
                unsupported other direct costs.

                (1) $24,993 on task order 49 under contract FA8903-10-D-8500

                (2) $74,775 on task order 205 under contract FA8903-10-D-8501

                (3) $150,299 on task order 68 under contract FA8903-10-D-8502

                (4) $8,097 on task order 209 under contract FA8903-10-D-8501

                (5) $9,241 on task order 210 under contract FA8903-10-D-8501


772nd Enterprise Sourcing Squadron Comments
The Acting Deputy Director, 772nd ESS, responding for the Commander, 772nd ESS,
agreed, stating that the 772nd ESS is engaged to secure supporting documentation for
the task orders. The 772nd ESS plans to complete this action by August 31, 2013.


Our Response
Comments from the Acting Deputy Director were responsive, and no further comments
are required.




                                                                                     DODIG-2013-121 │ 21
Appendixes




                Appendix A
                Scope and Methodology
                We conducted this performance audit from October 2012 through June 2013 in accordance
                with generally accepted government auditing standards. Those standards require that we
                plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                basis for our findings and conclusions based on our audit objectives. We believe that the
                evidence obtained provides a reasonable basis for our findings and conclusions based on
                our audit objectives.

                We collected, reviewed, and analyzed documents on 20 task orders, valued at $15.8 million,
                that 772nd ESS contracting officers at Joint Base San Antonio-Lackland awarded for
                professional, administrative, and management support services and other services, from
                two MACs awarded in FYs 2010 and 2011. The 20 task orders represented all task orders
                awarded under those two MACs for those types of services during FY 2012. See Appendix C
                for a list of MACs and task orders reviewed. To determine whether fair opportunity and price
                reasonableness was adequate, we reviewed pre-award documentation on the 20 task orders
                reviewed, including request for proposals, proposals, price negotiation memorandums,
                technical evaluations of contractor proposals, and IGCEs. To determine whether surveillance
                was adequate, we examined COR designation letters, QASPs, contractor monthly status
                reports, and COR surveillance files. We interviewed three contracting officers that awarded
                the 20 task orders and 14 CORs that performed surveillance on 19 task orders reviewed for
                surveillance. The 14 CORS were located at:

                         •	 Joint Base San Antonio-Lackland, Texas;

                         •	 Hickam Air Force Base, Hawaii; and

                         •	 Otis Air National Guard Base, Massachusetts.

                We reviewed other direct costs amounts included in contractor invoices—we did not review
                labor hours. We reviewed documentation from December 2000 to April 2013. We used the
                following criteria to perform the audit:

                         •	 FAR 16.505(b)(1), “Fair Opportunity,” requires contracting officers to provide
                           each awardee a fair opportunity to be considered for each order exceeding
                           $3,000 issued under MACs, unless an exception to the fair opportunity
                           process applies.

                         •	 FAR 16.505(b)(3), “Pricing Orders,” requires contracting officers to establish
                           prices for each order using the policies and methods in FAR Subpart 15.4 in
                           situations where the contract did not establish the price for the supply or service.

22 │ DODIG-2013-121
                                                                                                Appendixes



         •	 FAR 15.404-1, “Proposal Analysis Techniques,” states that the contracting officer
           is responsible for evaluating the reasonableness of the offered prices.

         •	 Defense Procurement and Acquisition Policy Memorandum, “Improving
           Competition in Defense Procurements–Amplifying Guidance,” April  27,  2011,
           states that contracting officers shall not depend on the standard at
           FAR 15.403-1(c)(ii) when determining the price to be fair and reasonable.
           Rather, the contracting officer shall use price or cost analysis in accordance
           with FAR 15.404-1 to make that determination.

         •	 FAR 46.401(a) and (b) states that a QASP should be prepared in conjunction
           with the preparation of the statement of work. The QASPs should specify all
           work requiring surveillance, the method of surveillance, and the place or places
           where the Government reserves the right to perform quality assurance.

         •	 Defense Federal Acquisition Regulation Supplement (DFARS), Procedures,
           Guidance, and Information (PGI) 201.602-2 allows contracting officers to
           designate qualified personnel as their authorized representatives to assist in the
           technical monitoring or administration of a contract.

         •	 DFARS 237.172, “Service Contracts Surveillance,” requires that QASPs be
           prepared in conjunction with the preparation of the statement of work or
           statement of objectives for solicitations and contracts for services. QASPs should
           be tailored to address the performance risks inherent in the specific contract
           type and the work effort addressed by the contract.

         •	 DFARS 246.401, “General,” states that the requirement for a QASP shall be
           addressed and documented in the contract file for each contract except those
           awarded using simplified acquisition procedures. For service contracts,
           the contracting officer should prepare a QASP to facilitate assessment of
           contractor performance.


Use of Computer-Processed Data
We used the Federal Procurement Data System–Next Generation database to identify task
orders that Air Force contracting activities award from MACs between October 1, 2011,
and September 30, 2012. We also used information downloaded from WAWF to obtain
documentation showing when DoD personnel reviewed contractor invoices. To assess the
accuracy of computer-processed data, we verified the Federal Procurement Data System
and WAWF data against official records at the 772nd ESS visited. We determined that
data obtained through the Federal Procurement Data System and WAWF were sufficiently
reliable to accomplish our audit objectives.


                                                                                          DODIG-2013-121 │ 23
Appendixes




                 Appendix B
                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO), DoD Inspector
                 General (DoD IG), Air Force Audit Agency, and the Special Inspector General for Iraq
                 Reconstruction issued 17 reports discussing competition and surveillance. Unrestricted
                 GAO reports can be accessed over the Internet at http://www.gao.gov/. Unrestricted
                 DoD IG reports can be accessed at http://www.dodig.mil/pubs.

                 Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
                 https://afkm.wpafb.af.mil/community/views/home.aspx?Filter=OO-AD-01-41 by those
                 with Common Access Cards.

                 Special Inspector General for Iraq Reconstruction unrestricted reports can be accessed
                 over the Internet at http://www.sigir.mil/Default.aspx.


                 GAO
                 GAO Report No. GAO-09-579, “Contract Management: Minimal Compliance with New
                 Safeguards for Time-and-Materials Contracts for Commercial Services and Safeguards
                 Have Not Been Applied to GSA Schedules Program,” June 24, 2009

                 GAO Testimony No. GA0-09-643T, “Defense Acquisitions: Actions Needed to Ensure Value
                 for Service Contracts,” April 23, 2009


                 DoD IG
                 DoD IG Report No. DODIG-2013-007, “Award and Administration of Multiple Award
                 Contracts at Naval Facilities Engineering Command Specialty Centers Need Improvement,”
                 October 26, 2012

                 DoD IG Report No. DODIG-2012-134, “Contingency Contracting: A Framework for Reform
                 2012 Update,” September 18, 2012

                 DoD IG Report No. DODIG-2012-033, “Award and Administration of Multiple Award
                 Contracts for Services at U.S. Army Medical Research Acquisition Activity Need
                 Improvement,” December 21, 2011

                 DoD IG Report No. D-2011-028, “Contract Oversight for the Broad Area Maritime
                 Surveillance Contract Needs Improvement,” December 23, 2010




24 │ DODIG-2013-121
                                                                                             Appendixes



DoD IG Report No. D-2010-087, “Weaknesses in Oversight of Naval Sea Systems Command
Ship Maintenance Contract in Southwest Asia,” September 27, 2010

DoD IG Report No. D-2010-081, “Army Use of Time-and-Materials Contracts in
Southwest Asia,” August 27, 2010

DoD IG Report No. D-2010-078, “Air Force Use of Time-and-Materials Contracts in
Southwest Asia,” August 16, 2010

DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010

DoD IG Report No. D-2009-109, “Contracts Supporting the DoD Counter Narcoterrorism
Technology Program Office,” September 25, 2009

DoD IG Report No. D-2009-083, “Logistics Support Contracting for the United States
Special Operations Command,” May 28, 2009

DoD IG Report No. D-2009-082, “SeaPort Enhanced Program,” May 6, 2009

DoD IG Report No. D-2009-036, “Acquisition of the Air Force Second Generation Wireless
Local Area Network,” January 16, 2009


Air Force Audit Agency
Air Force Audit Agency Report No. F2013-0009-L30000, “Air Force Center for Engineering
and the Environment Support Services Contract Management,” April 1, 2013

Air Force Audit Agency Report No. F2011-0008-FC1000, “Multiple-Award Indefinite
Delivery Indefinite Quantity Contracts at the Air Logistics Centers,” August 13, 2011


Special Inspector General for Iraq Reconstruction
Special Inspector General for Iraq Reconstruction Report No. 09-017, “Need to Enhance
Oversight of Theater-Wide Internal Security Services Contracts,” April 24, 2009




                                                                                        DODIG-2013-121 │ 25
Appendixes




                 Appendix C
                 Task Orders Reviewed
                 We reviewed 18 task orders awarded under the MAC for the Global Engineering,
                 Integration, and Technical Assistance (GEITA) bridge contracts. The Air Force can
                 procure a wide variety of services under the GEITA MAC, including restoration,
                 compliance, pollution prevention, conservation and planning, fuel facility engineering
                 and project work, base realignment and closure activities, range activity support,
                 military family housing (includes privatization and outsourcing), military construction
                 program support, Homeland Defense Act activities and initiatives (Global War on
                 Terrorism, force protection, and overseas contingency support), and operations and
                 maintenance support. The overall MAC has a not-to-exceed ceiling of $200 million and
                 the place of performance can be anywhere in the world.

                                                 Task Order
                                                   Amount        Type of Advisory and Assistance
                            Contract No.                                                            Task Order Type
                                                   (Figures            Services Purchased
                                                  Rounded)
                      GEITA Bridge Contract
                                                                14 CMEs to support the
                                                                environmental restoration work
                                                                component, which includes the       Cost-plus-fixed-
                      1) FA8903-10-D-8500/49     $1,950,000     installation restoration program,   fee
                                                                compliance restoration program,
                                                                and military munitions response
                                                                program.
                                                                3.4 CMEs in support of the AFCEE
                      2) FA8903-10-D-8500/50        530,000     and its services to multiple BRAC   Firm-fixed-price
                                                                installations.
                                                                4 CMEs to provide information
                                                                technology, program
                                                                management, project
                      3) FA8903-10-D-8501/203       635,422                                         Firm-fixed-price
                                                                management, quality assurance/
                                                                quality control, and strategic
                                                                planning services.
                                                                14 CMEs to support the
                                                                performance based acquisition       Cost-plus-fixed-
                      4) FA8903-10-D-8501/205     2,373,831     and environmental restoration       fee
                                                                work component at the
                                                                programming and project levels.
                                                                10 CMEs, including 1 CME for
                                                                Western Region Execution
                                                                Center Program Operation
                                                                support, 0.6 CME for Legacy
                      5) FA8903-10-D-8501/208     1,610,241                                         Firm-fixed-price
                                                                BRAC Master Plan support, and
                                                                8.4 CMEs for the Environmental
                                                                Portfolio Management Program
                                                                Implementation support.
                 Acronyms used throughout Appendix C are defined on the final page of Appendix C



26 │ DODIG-2013-121
                                                                                                         Appendixes



Task Orders Reviewed (cont’d)
                                Task Order
                                  Amount        Type of Advisory and Assistance
        Contract No.                                                                 Task Order Type
                                  (Figures            Services Purchased
                                 Rounded)
                                               3.4 CMEs to provide                   Firm-fixed-
                                               information technology, project       price/Cost
 6) FA8903-10-D-8501/209           530,933     management, quality assurance/        reimbursable
                                               quality control, and strategic        material & travel
                                               planning services.
                                               1 CME of on-site full time            Firm-fixed-
                                               support to the Headquarters           price/Cost
 7) FA8903-10-D-8501/210           259,840     United States Air Force, Europe       reimbursable
                                               Military Family Housing Branch.       material & travel
                                               0.75 CME for program and
                                               project-level Environmental
 8) FA8903-10-D-8501/211           176,881     Planning services in support of       Firm-fixed-price
                                               the AFCEE mission to support
                                               Pacific Air Force.
                                               1 CME to support BRAC
                                               military construction programs
                                               by providing design and
 9) FA8903-10-D-8501/212           179,622                                           Firm-fixed-price
                                               construction management
                                               services in support of the AFCEE
                                               mission.
                                               3 CMEs on-site technical
                                               personnel to carry out a full         Cost-plus-fixed-
 10) FA8903-10-D-8501/213          528,043     range of Geospatial Information       fee
                                               System support.
                                               1 CME in support of the
                                               environmental program,
                                               pursuant to HQ AFCEE mission
 11) FA8903-10-D-8501/214          206,601                                           Firm-fixed-price
                                               supporting the 611th CES at
                                               Wake Island, remote sites in
                                               Alaska, and Hawaii.
                                               1 CME for Project Management
                                               services and access to reach back
                                               support for all U.S.-Japan Alliance
 12) FA8903-10-D-8501/217          192,220                                           Firm-fixed-price
                                               Transformation and Realignment
                                               Agreement projects on Yokota
                                               Air Base.
                                               1 CME for compliance support at
                                               Joint Base Pearl-Harbor, Hickam
 13) FA8903-10-D-8501/219          162,090                                           Firm-fixed-price
                                               in support of the Pacific Air Force
                                               requirements.
                                               31 CMEs to review and assess
                                               contractor design and/or              Cost-plus-fixed-
 14) FA8903-10-D-8502/68         4,394,214     construction schedules, work          fee
                                               plans, quality control plans, and
                                               other contract submittals.
Acronyms used throughout Appendix C are defined on the final page of Appendix C




                                                                                                    DODIG-2013-121 │ 27
Appendixes



                 Task Orders Reviewed (cont’d)
                                                     Task Order
                                                       Amount        Type of Advisory and Assistance
                            Contract No.                                                                 Task Order Type
                                                       (Figures            Services Purchased
                                                      Rounded)
                                                                     2 CMEs in support of                Firm-fixed-
                                                                     environmental restoration,          price/Cost
                      15) FA8903-10-D-8502/76           289,926      compliance, pollution               reimbursable
                                                                     prevention, and conservation        material & travel
                                                                     and planning.
                                                                     2 CMEs, one with mechanical
                                                                     engineering experience and one
                                                                     with construction management
                      16) FA8903-10-D-8504/89           298,425      experience, in support of the       Firm-fixed-price
                                                                     military construction and
                                                                     operations and maintenance
                                                                     programs.
                                                                     1 CME to provide program
                                                                     management support for AFCEE        Cost-plus-fixed-
                      17) FA8903-10-D-8504/90           410,728      on all aspects of security onsite   fee
                                                                     in Afghanistan and in the Area of
                                                                     Responsibility.
                                                                     1 CME to support AFCEE in its
                                                                     role as a national service center
                                                                     for developing and providing
                      18) FA8903-10-D-8504/93           165,880                                          Firm-fixed-price
                                                                     environmental services in
                                                                     support of the 8th CES and the
                                                                     AFCEE mission.
                       Sub-Total                    $14,894,897
                                                                     RESS 2011 for Air Combat
                                                                     Command Group III Project at
                      FA8903-11-D-8501/8                449,460                                          Firm-fixed-price
                                                                     Dyess AFB, Texas and Moody
                                                                     AFB, Texas.
                                                                     RESS 2011 for Continental Group
                                                                     Project at Edwards AFB, Eglin
                      FA8903-11-D-8503/8                446,954      AFB, Eielson AFB, Hurlburt Field,   Firm-fixed-price
                                                                     McConnell AFB and Seymour
                                                                     Johnson AFB.
                       Sub-Total                       $896,414
                       Totals                       $15,791,311
                 Legend:
                    AFB	        Air Force Base
                    AFCEE       Air Force Center for Engineering and the Environment
                    BRAC	       Base Realignment and Closure
                    CES	        Civil Engineering Squadron
                    CME	        Contracted Man Year Equivalents

                 We reviewed two task orders awarded under the MAC for Real Estate Support
                 Services (RESS). Services that the Air Force can procure under the RESS MAC include
                 private sector financial, legal, real estate investment and development expertise and
                 litigation-related support as required to support real estate efforts. The overall MAC
                 has a not-to-exceed ceiling of $40 million.

28 │ DODIG-2013-121
                                                                                           Appendixes




Appendix D
Technical Evaluation Problems
                               Task Order
                       Task                  Information from Technical Evaluations
                                 Amount
      Contract No.     Order                Regarding Reviews of Contractor‑Proposed
                                 (Figures
                        No.                                  Hours
                                Rounded)
                                            The quantity and mix of labor hours
                                            proposed by [the contractor] have been
1) FA8903-10-D-8500     49     1,950,000    evaluated and are considered to be fair and
                                            reasonable.
                                            Pending confirmation that the “Office
                                            Personnel” designation for the two
2) FA8903-10-D-8500     50       530,000    Wurtsmith individuals is accurate, the
                                            contractor's proposed labor/resources are
                                            considered reasonable and appropriate.
                                            The type of labor skill level and mix of
                                            labor as well as the proposed direct labor
3) FA8903-10-D-8501    203       635,422    hours and intercompany labor hours were
                                            reviewed and determined to be appropriate
                                            for the effort.
                                            The quantity and mix of labor hours
                                            proposed by [the contractor] have been
4) FA8903-10-D-8501    205     2,373,831    evaluated and are considered to be fair and
                                            reasonable.
                                            The proposed labor hours as well as labor
5) FA8903-10-D-8501    208     1,610,241    categories are necessary and reasonable.
                                            The quantity and mix of labor hours
                                            proposed by [the contractor] have been
6) FA8903-10-D-8501    209       530,933    evaluated and are considered to be fair and
                                            reasonable and consistent with past task
                                            order.
                                            The quantity and mix of labor hours
                                            proposed by [the contractor] have been
7) FA8903-10-D-8501    210       259,840    evaluated and are considered to be fair and
                                            reasonable.
                                            The quantity and mix of labor hours
8) FA8903-10-D-8501    211       176,881    proposed by [the contractor] has been
                                            evaluated and is considered reasonable.
                                            [The contractor] proposed 1612 hours at a
                                            cost of $179,622. The proposal is consistent
9) FA8903-10-D-8501    212       179,622    with the performance work statement,
                                            fair and reasonable and acceptable to the
                                            government.
                                            The number of hours proposed are
10) FA8903-10-D-8501   213       528,043    appropriate; therefore, the labor rates
                                            should be verified as appropriate.
                                            The quantity and mix of labor hours
                                            proposed by [the contractor] has been
11) FA8903-10-D-8501   214       206,601    evaluated and is considered to be fair and
                                            reasonable.




                                                                                      DODIG-2013-121 │ 29
Appendixes



                 Technical Evaluation Problems (cont’d)
                                                       Task Order
                                              Task                   Information from Technical Evaluations
                                                         Amount
                               Contract No.   Order                 Regarding Reviews of Contractor‑Proposed
                                                         (Figures
                                               No.                                   Hours
                                                        Rounded)
                                                                    The quantity and mix of labor hours
                                                                    proposed by [the contractor] have been
                                                                    evaluated and are considered to be fair
                      12) FA8903-10-D-8501    217        192,220    and reasonable—overall, [the contractor]
                                                                    proposed about the same amount of
                                                                    hours as identified in the Independent
                                                                    Government Estimate.
                                                                    The quantity and mix of labor hours
                                                                    proposed by [the contractor] have been
                      13) FA8903-10-D-8501    219        162,090    evaluated and are considered to be fair and
                                                                    reasonable.
                                                                    [The contractor] has proposed sufficient
                                                                    labor hours and qualified personnel to
                      14) FA8903-10-D-8502     68       4,394,214   perform the requirements identified in the
                                                                    performance work statement.
                                                                    The quantity and mix of labor hours
                                                                    proposed by [the contractor] have been
                      15) FA8903-10-D-8502     76        289,926    evaluated and are considered to be fair and
                                                                    reasonable.
                                                                    The quantity and mix of labor hours
                                                                    proposed by [the contractor] have been
                      16) FA8903-10-D-8504     89        298,425    evaluated and are considered to be fair and
                                                                    reasonable.
                                                                    The quantity and mix of labor hours
                                                                    proposed by [the contractor] have been
                      17) FA8903-10-D-8504     90        410,728    evaluated and are considered to be fair and
                                                                    reasonable.
                                                                    The quantity and mix of labor hours
                                                                    proposed by [the contractor] have been
                      18) FA8903-10-D-8504     93        165,880    evaluated and are considered to be fair and
                                                                    reasonable.
                                                                    The [contractor’s] proposed labor hours/
                                                                    categories are reasonable and although
                                                                    above (2,175 hours) the Independent
                      19) FA8903-11-D-8501      8        449,460    Government Estimate (2,000 hours). The
                                                                    [contractor’s] hourly task labor coverage
                                                                    are reasonable and appropriate.
                                                                    Availability of labor and resources
                                                                    assessment: The proposal to provide a
                                                                    combination of internal [the contractor]
                                                                    resources along with the boutique of real
                      20) FA8903-11-D-8503      8        446,954    estate services from [the sub-contractors]
                                                                    to perform the tasks is considered an
                                                                    acceptable approach to conduct the tasks
                                                                    as identified in the performance work
                                                                    statement.
                       Total                          $15,791,311




30 │ DODIG-2013-121
                                                                                                 Appendixes




Appendix E
Summary of Potential Monetary Benefits
 Recommendations                      Type of Benefit                Amount of   Accounts
                                                                      Benefit
                       Economy and Efficiency.
                       Funds put to better use from the FY 2012
 B.2.f(1, 2, 3 ,5)                                                   $259,308    5723400
                       Operations and Maintenance, Air Force
                       appropriation
                       Economy and Efficiency.
 B.2.f(4)              Funds put to better use from the Department     $8,097    97X0512
                       of Defense Base Closure Account 2005

Note: Potential monetary benefits are questioned costs.




                                                                                            DODIG-2013-121 │ 31
Management Comments




                 Management Comments
                 772nd Enterprise Sourcing Squadron Comments

                 772nd Enterprise Sourcing Squadron Comments




32 │ DODIG-2013-121
                                                 29
                                              Management Comments




772nd Enterprise Sourcing Squadron Comments (cont’d)




                                                    DODIG-2013-121 │ 33
                               30
Management Comments




                 772nd Enterprise Sourcing Squadron Comments (Cont’d)




34 │ DODIG-2013-121
                                                31
                                              Management Comments




772nd Enterprise Sourcing Squadron Comments (Cont’d)




                                                    DODIG-2013-121 │ 35
                               32
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      AFCEC Air Force Civil Engineer Center
                        COR Contracting Officer’s Representative
                       CPFF Cost-Plus-Fixed-Fee
                      DFARS Defense Federal Acquisition Regulation Supplement
                        ESS Enterprise Sourcing Squadron
                        FAR Federal Acquisition Regulation
                        FFP Firm-Fixed-Price
                      GEITA Global Engineering, Integration, and Technical Assistance
                       IDIQ Indefinite-Delivery, Indefinite-Quantity
                       IGCE Independent Government Cost Estimate
                       MAC Multiple‑Award Contract
                       ODC Other Direct Costs
                      QASP Quality Assurance Surveillance Plan
                       RESS Real Estate Support Services
                      WAWF Wide Area Workflow




36 │ DODIG-2013-121
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
